No. 20-730
========================================
In the

Supreme Court of the United States

========================================
LINDSAY R. COOPER, ET AL., Petitioners

V.
TOKYO ELECTRIC POWER COMPANY
HOLDINGS, INC., ET AL., Respondents.
______________

ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS FOR
THE NINTH CIRCUIT
_______________________________________________
REPLY BRIEF IN SUPPORT OF PETITION FOR
WRIT OF CERTIORARI
_________________________________________________
John R. Edwards
Catharine E. Edwards
Edwards Kirby, LLP
3201 Glenwood Avenue,
Suite 100
Raleigh, NC 27612
919-335-7005

Charles Bonner
A. Cabral Bonner
Law Offices of Bonner
& Bonner
475 Gate 5 Rd # 211,
Sausalito, CA 94965

Paul C. Garner
c/o Bonner & Bonner
475 Gate 5 Rd # 211,
Sausalito, CA 94965

Counsel of Record

Counsel for Petitioners

Howard Moore Jr

Moore & Moore
1569 Solano Ave #204
Berkeley Ca 94707
510 542 7172
moorlaw@aol.com

i
QUESTIONS PRESENTED FOR REVIEW:

Whether United States Military personnel, while
deployed on U.S. Naval vessels undertaking a U.S.
diplomatic humanitarian assistance mission, can
rightfully rely on jurisdiction in a United States court
when incurring harms by a private, foreign
corporation for conduct occurring on foreign soil;
Whether a Statement of Interest from the United
States should be afforded dispositive weight when
considering dismissal on international comity
grounds where Petitioners are U.S. Military
Personnel harmed by a private Japanese corporation
while onboard U.S. Naval vessels deployed on a U.S.
initiated diplomatic and humanitarian relief mission
to Japan;
Whether the lower courts had erroneously ascribed
dispositive weight to their choice-of-law findings
when
analyzing
and
ultimately
dismissing
Petitioners’ claims on the basis of international
comity.

ii
TABLE OF CONTENTS

INTRODUCTION……………………………………… 1
ARGUMENT……………………………………………..2
I.
Petitioners Rely on Traditional
Adjudicatory Comity Analysis for
Positing that Their Status as
Representatives of the United
States Require A Weight that went
Unacknowledged by the Lower
Courts………………………………………...2
II.

A Judicial Disregard of an Executive
Branch’s Statement of Interest on
Questions of Foreign Policy and
Diplomacy Most Definitely Raises
a Separation of Powers Concern………….4

III.

As a Rule of Procedure, Choice-of-Law
Cannot be the Determinative Rationale
for a Court to Abstain Jurisdiction
Under International Comity………….......6

CONCLUSION………………………………….……….7

1
INTRODUCTION

While the injustice of permitting a foreign forprofit corporation to evade liability for its
reprehensibly negligent conduct that caused untold
bodily, property and ecological devastation has
hovered over Petitioners’ heads for the past ten years,
Petitioners persist in remaining hopeful that the
physical and emotional toil they have endured will not
have been for naught; that their military service to
the United States of America would justly afford them
reciprocity such that they could rely upon a United
States tribunal to redress their harms against a
foreign, grievously negligent corporation. While the
lower courts ruled that such reciprocity is unavailing,
Petitioners remain hopeful that the particularity of
their servicemember status and the circumstances
under which they were harmed will provide this
Court with an opportunity to fine tune and remediate
the otherwise amorphous isthmus of international
comity so they and future American litigants can
emphatically rely on a just resolution of their claims
within a tribunal located on American soil.
It is with that intention that Petitioners submit
the following responses to points raised in
Respondents’ Oppositions.

2
ARGUMENT
I.

Petitioners Rely on Traditional
Adjudicatory Comity Analysis for
Positing that Their Status as
Representatives of the United States
Requires a Weight that went
Unacknowledged by the Lower
Courts

Respondents’ assertion that Petitioners are
positing an alternative comity approach is belied by
the express arguments made in Petitioners’ opening
briefs. Rather than an alternative to comity,
Petitioners merely spotlight a glaring incongruity
that has galloped alongside the court’s comity
discussion during the entirety of the proceedings. To
wit: How is it possible that Petitioners, as U.S.
Servicemembers
undertaking
a
diplomatic
humanitarian relief mission requested by a U.S. ally,
are unable to rely upon a U.S. tribunal to redress the
harms they incurred on account of well documented
negligent conduct by a foreign, for-profit corporation?
How is it possible that in an otherwise close call on
whether to relinquish U.S. jurisdiction as a show of
diplomatic deference to a sovereign nation’s interests,
that the lower courts failed to fully consider the
requisite weight to ascribe Petitioners’ status as
agents of the United States government.
As their opening brief makes plain, Petitioners
are by no measure advancing an alternative, first
impression comity analysis. Rather, Petitioners are
pointing out that, given the rationale for the very
existence of comity that underlies ‘traditional
adjudicatory comity analysis,’ i.e., as a means of

3
"maintaining
amicable
working
relationships
between nations,” and as a ''shorthand for good
neighborliness, common courtesy and mutual respect
between those who labor in adjoining judicial
vineyards,” the existing comity considerations
utilized by lower courts, as well as those alternatives
that exists in other Circuits, do not account for the
circumstances that exist here. In this case, one party
to the action is in fact a representative of the United
States Government’s Executive Branch, whose very
claims derive explicitly from having carried out a
United States governmental function. The otherwise
Executive
function
inherent
in
a
comity
determination is particularly underscored where like
here, Petitioners themselves hail from the Executive
branch.
Petitioners are by no means seeking ‘error
correction’ but rather highlight a need for this Court
to address the impact that government actors, as a
class of litigants, should have on a comity
determination. Thus, as a case of first impression, and
a lack of any uniform standards or factors for comity
determinations across the Circuits, the issues before
this Court render Petitioners’ claims a proper vehicle
for addressing and clarifying the law of international
comity.
Similarly,
Respondents’
argument
that
Petitioners’ ‘new’ and ‘novel’ comity analysis had not
been previously pressed below is unavailing.
Petitioners’ comity analysis is indeed not a new or
novel approach, but rather one that builds upon the
well-established rationale underlying comity that the
parties and the lower courts have relied upon
throughout the pendency of this ongoing ten-year

4
proceeding. Respondents misunderstand that
Petitioners’ assertion of immunity statutes are
offered as an analogy, meant to emphasize the
imperativeness
that
Petitioners’
status
as
representatives of the United States Government
must be given great weight when courts are charged
with deciding comity. In this regard, as immunity
statutes serve a similar function as comity,
Petitioners’ reliance on such analogies are
fundamentally sound.
Petitioners’ immunity contentions do not raise a
question of forfeiture for failure to press the issue
below because Petitioners’ status had consistently
been raised before the District court when addressing
the comity factors as they are so designated under
Ninth Circuit precedent, i.e., Mujica v. AirScan Inc.
II.

A Judicial Disregard of an Executive
Branch’s Statement of Interest on
Questions of Foreign Policy and
Diplomacy Most Definitely Raises a
Separation of Powers Concern

Given that both the District court and Ninth
Circuit designated their comity determinations as
‘close calls,’ it is ‘reasonably’ confounding that despite
assurances from the United States government that
there were no diplomatic impediments to the District
court retaining jurisdiction, such assurances went
unheeded when at the least, they should have
reasonably tipped the scales in favor of the court
retaining jurisdiction. Again, given the ‘close call,’ it
is certainly reasonable to conclude that the District
court and the Ninth Circuit effectively afforded



5
minimal weight to the opinion of the United States
government despite the government speaking on
matters of its own diplomatic and foreign policy
concerns. This is a glaring example of why it is
imperative that this Court review comity
jurisprudence, where, as a judicially applied quasiexecutive function, it raises concerns as to exactly
how separation of powers operates within a comity
determination.
As set out more fully in Petitioners’ opening brief,
by abstaining to exercise its rightfully endowed
jurisdiction on account of comity concerns, the
judiciary is effectively engaging in executive type
diplomacy which is decidedly an express function of
the Executive branch. As comity clearly invokes a
question of separation of powers that has not yet been
examined by this Court, and whose murkiness
permitted the otherwise unjust result at bar,
guidance from this Court is absolutely paramount.
Respondents’ arguments reinforce such necessity
where merely parsing the content of a statement of
interest cannot and should not minimize the
Executive branches’ bottom line that adjudicating a
claim in a United States court would have no
diplomatic impact, particularly where like here,
Petitioners are in fact, officers of the Executive
branch who were harmed while aboard U.S. territory
carrying out an executive function. Although in its
Statement of Interest, the United States rendered
opinions on some of the legal issues before the District
court, such opinions were extraneous to the primary
comity concern of whether retaining jurisdiction
would strain diplomatic relations with Japan and/or
impinge upon foreign policy concerns. The United





6
States answered that question with a negative. Pet.
App. 216a-217a, 231a, Given the primary concern
underlying comity, the court was arguably bound to
afford significant weight to the expressed diplomatic
and foreign policy position of the Executive branch.
The lower courts however failed to afford the
appropriate weight which raises a significant
separation of powers question that perhaps until now,
has lied dormant within the skeleton of the comity
doctrine. It is the resolution of this issue and the
resulting lack of judicial clarity that renders
Petitioners’ claims ripe for review. It is not surprising
that Respondents’ opposition is silent with respect to
Petitioners’ separation of powers argument and
instead characterizing Petitioners’ claim as merely a
fact bound error correction.
III.

As a Rule of Procedure, Choice-ofLaw Cannot be the Determinative
Rationale for a Court to Abstain
Jurisdiction Under Comity

The lower courts absolutely abused their
discretion by unduly relying on the procedural rule of
choice-of-law rather than on account of the factors
expressly set out by the Ninth Circuit Court of
Appeals. Such assertion is firmly buttressed by a
simple reading of the District court’s order and the
Ninth Circuit’s affirmance. As the majority of both
courts’ opinions are devoted to an analysis of the
question of choice-of-law, it is readily apparent from
their exposition that the two courts overly relied upon
their choice-of-law determination as providing the
overwhelming basis for dismissing Petitioners’ claims
and abstaining jurisdiction on comity grounds. Pet.
App. 25a-29a, 49a-59a. Essentially, the lower courts





7
shifted the result of an otherwise procedural rule onto
the jurisdictionally substantive rule of international
comity. While Petitioners acknowledge that choice-oflaw can conceivably serve as a factor under a comity
analysis, the abuse of discretion here lies with the
inordinate weight that the lower courts ascribed to its
choice-of-law finding that arguably overshadowed
and eclipsed the otherwise expressly designated
comity factors under Mujica.
CONCLUSION

Based upon the solid grounds asserted herein for
review, this case has no defects preventing the review
of the questions presented. The Court should
therefore grant this Petition for a Writ of Certiorari.1


1

As equity is necessary in many cases to fulfill the law where
the law by its nature is general in scope and application,
‘aequitas sequitur legem,’ this Court has consistently over its
history employed its equitable remedial powers to address
antecedent rules which “cannot be applied without injustice, or
to which they cannot be applied at all." Joseph Story,
Commentaries on Equity Jurisprudence 6-7 (13th ed. 1886). As
the instant petition makes plain, the Court’s equitable lens is
more than reasonably justified. See, Brown v. Board of
Education, 349 U.S. 294, 300(1955). ("traditionally, equity has
been characterized by a practical flexibility in shaping its
remedies…”)







8
Respectfully submitted,
John R. Edwards
Catharine E. Edwards
Edwards Kirby, LLP
3201 Glenwood Ave, # 100
Raleigh, NC 27612
919-335-7005
Paul C. Garner
c/o Bonner & Bonner
475 Gate 5 Rd # 211,
Sausalito, CA 94965

Counsel for Petitioners



Charles Bonner
A. Cabral Bonner
Bonner & Bonner
475 Gate 5 Rd # 211,
Sausalito, CA 94965
Howard Moore Jr
Counsel of Record
Moore & Moore
1569 Solano Ave #204
Berkeley Ca 94707
510 542 7172
moorlaw@aol.com

